TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Consolidation of Tax Return Processing Sites
                  Is Progressing Effectively, but Improved
                       Project Management Is Needed



                                         August 31, 2007

                              Reference Number: 2007-40-165




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    August 31, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Consolidation of Tax Return Processing Sites Is
                                  Progressing Effectively, but Improved Project Management Is Needed
                                  (Audit # 200640023)

 This report presents the results of our review to determine whether the Individual Master File1
 Submission Processing site (hereafter referred to as Processing site or site) consolidation has
 been adequately planned and monitored and whether anticipated cost savings have been realized.
 This audit was included in our Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 Formerly, the IRS used eight Processing sites to process individual income tax returns. Due to
 the decline in the number of paper returns and corresponding increase in electronic returns, the
 IRS is consolidating sites and directing taxpayers to file at the remaining sites to reduce costs and
 increase efficiency. IRS efforts to maintain high productivity and minimize the effect on
 taxpayers during the transition have generally been successful. However, the IRS has not
 adequately monitored the consolidation to measure the extent to which it is achieving its primary
 objective of cost savings.

 Synopsis
 The IRS initiated a consolidation of its Processing sites after completing a study in
 December 2000 to evaluate options for site closures. The increase in electronic filing and
 consequent decrease in paper return filing prompted the IRS study. While implementing its plan,
 the IRS has closely monitored the level of paper return filing to ultimately transition Processing
 sites to only three locations: Fresno, California; Kansas City, Missouri; and Austin, Texas.

 1
     The IRS database that maintains transactions or records of individual tax accounts.
                  Consolidation of Tax Return Processing Sites Is Progressing
                   Effectively, but Improved Project Management Is Needed



The IRS effort to transfer Processing site operations to fewer locations has been successful to
date. The Brookhaven, New York, and Memphis, Tennessee, Processing Sites have been closed,
and the Philadelphia, Pennsylvania, Processing Site is scheduled to close later this year. The IRS
has maintained a high level of productivity and successfully processed individual income tax
returns while implementing the consolidation. It has also conducted the consolidation effort with
limited effect on taxpayers. During the consolidation, the IRS has taken steps to monitor
operational aspects of and help employees affected by the consolidation find new positions. The
IRS has indicated that it expects to save about $68 million over 5 years from closing the
Brookhaven Processing Site and more than $39 million by 2010 from closing the Memphis
Processing Site.
As the IRS moves forward with the consolidation, improvements are needed in setting financial
goals and in updating and monitoring related costs and benefits. The business decision to
consolidate sites was based on a qualitative
plan that did not include a cost-benefit
analysis. The IRS has the tools it needs to do       As the IRS moves forward with the
                                                      consolidation, improvements are
such an analysis and has used these tools to       needed in setting financial goals and in
prepare ad hoc reports on specific                 updating and monitoring related costs
consolidation issues. Without financial goals                   and benefits.
related to the consolidation, the IRS has not
had an incentive to determine how efficient its
decisions have been or if it could be saving more.
In addition to not including costs and benefits in an initial consolidation plan, the IRS has not
adequately updated or monitored the costs and benefits that accrued as the plan was
implemented. The IRS could not provide reliable information on technology costs related to the
Brookhaven and Philadelphia Processing Site closures. In addition, it has not adequately
monitored and updated financial information on the personnel costs of consolidations. The IRS
has also included savings that are not attributable to site consolidation in some of its ad hoc
analyses. To its credit, the IRS has developed a preliminary methodology to help address these
problems and provide a consistent means of monitoring consolidation costs and benefits.
Despite the inadequacies of the existing cost-benefit information, we believe the IRS will benefit
in the future from the consolidation.

Recommendations
The Commissioner, Wage and Investment Division, should task the Project Management Office
with regularly monitoring the consolidation plan and ensure key analysts receive training in
cost-benefit analysis. The Project Management Office should also complete a cost-benefit
analysis to determine if the existing plan is still optimal in terms of cost savings and operational
effectiveness.


                                                                                                       2
                  Consolidation of Tax Return Processing Sites Is Progressing
                   Effectively, but Improved Project Management Is Needed



Response
IRS management agreed with our first recommendation and partially agreed with our second
recommendation. The Wage and Investment Division Project Management Office will become
officially responsible for monitoring and updating activities with regard to consolidation, and
key analysts in the Project Management Office are scheduled to attend cost-benefit training.
Management recognized that some of the assumptions used to determine the existing plan may
have changed; however, they did not agree to complete a cost-benefit analysis to determine if the
existing plan is optimal or if alternatives need to be considered. Management stated the IRS is
too far into the process to make changes either to the planned order of consolidation or to the
three-site end-state configuration for processing of individual tax returns, and there was no
evidence to suggest that the decisions made were incorrect. Management did agree, as an
alternative, to conduct a formal cost analysis using its recently developed cost model to calculate
the actual savings from the Philadelphia Processing Site consolidation and to calculate the
expected savings from the Andover, Massachusetts, Processing Site consolidation. Management
stated they would carry forward the lessons learned to maximize the potential savings to be
achieved when the Atlanta, Georgia, Processing Site is consolidated, as projected, in 2011.
Management believes these actions will significantly enhance the consolidation process and
address any prior deficiencies in the area of cost-benefit analysis. Management’s complete
response to the draft report is included as Appendix V.

Office of Audit Comment
We agree that the IRS’ alternative approach to analyze the costs and expected savings of the
Philadelphia and Andover Processing Site closures should help improve project management, but
we believe additional steps could be taken to improve financial management of the project
overall. We recognize that factors other than cost enter into the decision-making process, but we
disagree with the IRS’ opinion that it should not prepare a mid-project cost-benefit analysis
because it is too far into the process to make changes. There are still several years left before
project implementation is complete, and we believe a comprehensive cost-benefit analysis would
help assure this long-term, multimillion dollar project proceeds in the most efficient manner.
The IRS acknowledged improvements were needed in its cost-benefit analysis, including the
need to focus on benefits that result primarily from site closures and not from increased
electronic filing. In addition, Federal Government guidance documents stress that evaluating
costs and benefits should be part of the decision-making and project management processes.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                  3
                         Consolidation of Tax Return Processing Sites Is Progressing
                          Effectively, but Improved Project Management Is Needed




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Transfer of the Returns Processing Operations to
          Fewer Sites Has Been Successful to Date.....................................................Page 4
          The Consolidation Plan Did Not Include a Cost-benefit
          Analysis of Site Closures ..............................................................................Page 9
          Consolidation Costs and Savings Are Not Adequately
          Monitored......................................................................................................Page 11
                    Recommendations 1 and 2: ..............................................Page 13

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Space-Related Savings and Costs for Closing
          Submission Processing Sites.........................................................................Page 19
          Appendix V – Management’s Response to the Draft Report .......................Page 20
      Consolidation of Tax Return Processing Sites Is Progressing
       Effectively, but Improved Project Management Is Needed




                    Abbreviations

FTE           Full-Time Equivalent
IRS           Internal Revenue Service
                                        Consolidation of Tax Return Processing Sites Is Progressing
                                         Effectively, but Improved Project Management Is Needed




                                                            Background

Since the passage of the Internal Revenue Service (IRS) Restructuring and Reform Act of 1998,1
the IRS has undergone substantial changes, including an extensive reorganization and reduction
to the number of Submission Processing Sites (hereafter referred to as Processing site or site)
that process paper tax returns. To improve the Electronic Tax Administration program, the IRS
Restructuring and Reform Act of 1998 also required the IRS to reach the goal of 80 percent of
tax returns filed electronically by 2007. The IRS achieved an electronic filing rate of 54 percent
for individual tax returns for 2006.2 With increased electronic filing, a substantial decrease in
paper returns has occurred nationwide and is projected to continue, as detailed in Figure 1.
                                  Figure 1: Actual and Projected Paper and Electronic Filings
                                                  for Individuals (in millions)

                                 160
         Returns (in millions)




                                 140
                                 120
                                 100
                                                                                        Paper Returns
                                  80
                                                                                        Electronic Returns
                                  60
                                  40                                                    Total Returns
                                  20
                                   0
                                       2000   2002   2004   2006   2008   2010   2012
                                                      Calendar Year



    Numbers for 2007 through 2012 are projected.
    Sources: Actual numbers: IRS Statistics of Income Bulletin Table 22, Selected Returns and Forms Filed
    or To Be Filed by Type During Specified Calendar Years, 1990-2007. Projected numbers: Spring 2006
    Update, Calendar Year Projections of Individual Returns (Document 6187).

As electronic filing increases, the IRS has been able to decrease the number of employees needed
to process the remaining paper tax returns. The increase in electronic filing and consequent
decrease in paper return filing prompted an IRS study on ways to benefit from this trend. To
reduce associated overhead and real estate costs, and increase efficiency, the IRS developed a
1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  All dates are calendar years unless otherwise noted.
                                                                                                              Page 1
                      Consolidation of Tax Return Processing Sites Is Progressing
                       Effectively, but Improved Project Management Is Needed



business plan to gradually reduce the number of Processing sites responsible for handling
individual paper tax returns. The plan, completed in December 2000, will take approximately
10 years to fully implement based on the growth rate of electronic filing. The plan is to close an
additional site every 2 years, contingent on the continued decline in the number of paper returns
filed. Other nonprocessing campus3 operations will continue at the closed Processing sites.
The IRS’ initial analysis identified an end state of fewer than four Processing sites as ideal, with
Fresno, California; Kansas City, Missouri; and Austin, Texas, deemed to be the best sites for
continuing operations. Tax return submissions were to be migrated to the remaining Processing
sites until all taxpayers file at one of the three remaining sites. The IRS established a tentative
timetable for discontinuing paper return processing at five sites as follows:
    1.   Brookhaven, New York                January 2004
    2.   Memphis, Tennessee                  October 2005
    3.   Philadelphia, Pennsylvania          October 2007
    4.   Andover, Massachusetts              October 2009
    5.   Atlanta, Georgia                    October 2011
The Brookhaven and Memphis Processing Sites have already closed. The IRS is in the process
of closing the Philadelphia Processing Site during 2007. The Andover and Atlanta Processing
Sites are still scheduled to close in 2009 and 2011, respectively. The IRS has indicated that, over
a 5-year period, it expects about $68 million in savings from the Brookhaven Processing Site
consolidation.4 The IRS also estimated that it would recover all costs from closing the Memphis
Processing Site by 2006 and save more than $39 million by 2010.5
The IRS began hiring employees with limited terms or temporary employees instead of
permanent employees in Processing sites slated to close so the costs of having to lay off
employees would be reduced. The IRS also expects to reduce the related equipment and real
estate costs. As part of a continuing process to manage its space, the IRS worked with the
General Services Administration to develop a comprehensive real estate master program to deal
more efficiently with the 10 million square feet of space it occupied. The plan shows a possible
16 percent reduction in space over 15 years.
This review was performed at the Fresno, Kansas City, and Philadelphia Processing Sites and the
Memphis Accounts Management Site during the period September 2006 through March 2007.
The audit was conducted in accordance with Government Auditing Standards. Detailed


3
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. A Processing site
is a component of a campus.
4
  March 2004 IRS internal report, Submission Processing Brookhaven Consolidation Cost Savings.
5
  Congress had requested certain cost information related to the Processing site consolidation, and this estimate was
in a document provided to Congress in 2004.
                                                                                                              Page 2
                 Consolidation of Tax Return Processing Sites Is Progressing
                  Effectively, but Improved Project Management Is Needed



information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 3
                       Consolidation of Tax Return Processing Sites Is Progressing
                        Effectively, but Improved Project Management Is Needed




                                           Results of Review

Transfer of the Returns Processing Operations to Fewer Sites Has
Been Successful to Date
Consolidation of Processing sites has proceeded according to the IRS plan. The reduction in the
number of Processing sites has not adversely affected the processing of individual tax returns,
and the IRS has continued to have successful filing seasons6 during the consolidation process.
IRS efforts to maintain high productivity and minimize the effect on taxpayers during the
transition have generally been successful. Most productivity measures such as error rates,
processing timeliness, and some efficiency measures have improved since the consolidation
began. Figure 2 shows the improvements in productivity since 2002.
                   Figure 2: Submission Processing Productivity Measures
                         for Individual Tax Returns by Calendar Year
                                                                                                          Percentage
          Productivity Measure               2002        2003         2004        2005         2006         Change
                                                                                                          2002 - 2006

Productivity (weighted returns per staff
year)                                       28,389      30,179       30,405      31,444       33,237        +17%
Deposit Error Rate (percentage of
misapplied payments)                         4.8%         4.2%        3.5%         2.2%            1.6%      -67%
Deposit Timeliness (interest forfeited
due to untimely deposit of checks per
$1 million)                                  $578         $529         $407        $390            $354       n/a*
Letter Error Rate (percentage of
incorrect letters issued to taxpayers)       7.4%         7.1%        6.6%         3.1%            3.6%      -51%
Refund Error Rate (percentage of
refunds with errors caused by the IRS)       8.0%         5.3%        4.9%         5.0%            4.5%      -44%
Refund Timeliness (percentage of
refunds issued within 40 days)              98.2%        98.8%       98.3%        99.2%       99.3%          +1%
* = Calculation method for this measure changed from 2003 to 2004, causing data to be not comparable.
Source: Data obtained from the IRS Business Results Measures Intranet site.

Long-term planning was needed to ensure timely changes to the instructions advising taxpayers
where to file their tax returns. To determine how many returns can be moved to remaining sites,
6
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 4
                     Consolidation of Tax Return Processing Sites Is Progressing
                      Effectively, but Improved Project Management Is Needed



the IRS monitors the level of paper filing from each State and projects the number of paper
returns for the following years. Then it gradually redirects taxpayers who had previously filed at
a closing site to file at the remaining Processing sites. Staffing needs and processing capacity at
both the losing and gaining sites are considerations in the decision to redirect returns. Figure 3
shows the redistribution of returns processing to the remaining sites as sites have closed.
     Figure 3: Paper Return Processing Volume by Campus and Calendar Year
                        Individual Tax Returns (in thousands)

                                                                                                      Percentage
                                                                                                       Change
            Campus Location                  2002        2003        2004        2005        2006     2002 - 2006

Processing Sites Closed or to Be Closed
   Ogden and Cincinnati sites*              6,764            0           0           0           0       -100%
   Brookhaven (closed 2003)                 7,480       4,240            0           0           0       -100%
   Memphis (closed 2005)                    8,051       8,302       5,227       3,024            0       -100%
   Philadelphia (to be closed 2007)        10,666      10,114       9,545       8,333       6,848         -36%
   Andover (to be closed 2009)              7,531       8,066       8,712       7,797       7,940          +5%
   Atlanta (to be closed 2011)              9,959       9,975      10,414       9,755      10,406          +4%
Remaining Processing sites
   Austin                                   9,679       9,932      10,429       9,768       9,559          -1%
   Fresno                                  12,618      15,306      13,349      13,683      13,713          +9%
   Kansas City                             10,758      11,329      11,474      11,453      12,476        +16%

Totals                                     83,505      77,265      69,149      63,812      60,942         -27%
Column totals may be off due to rounding.
* Some individual returns were processed at the Ogden and Cincinnati Processing Sites in 2002. Since 2003, these
Sites have processed only business and exempt organization returns.
Source: Document 6186: Calendar Year Return Projections for the United States and IRS Centers (2003 Update,
Fall 2004 Update, 2005 Update, and 2006 Update).

During this consolidation process, the IRS has taken steps to minimize the effect on taxpayers. It
took steps to inform taxpayers about changes in filing locations by:
    •    Updating information available on the IRS web site.
    •    Updating Your Federal Income Tax For Individuals (Publication 17).
    •    Including updated information in the tax packages sent to taxpayers.
    •    Disseminating information on changes in filing locations at annual tax practitioner
         forums.


                                                                                                         Page 5
                  Consolidation of Tax Return Processing Sites Is Progressing
                   Effectively, but Improved Project Management Is Needed



A small percentage of taxpayers sent returns to the old locations after the sites were closed.
About 524,000 individual returns, approximately 12 percent of the previous year’s returns, were
sent to the Brookhaven Processing Site in error in 2004. By 2006, this was down to less than
3 percent. The Memphis Processing Site received about 128,000 individual returns sent in error,
or 4 percent of the previous year’s returns, the year after it closed.
The IRS considers returns that are timely postmarked to be timely filed; consequently, any
additional time required for processing due to longer shipping distances or misdirected mail
would not cause a return to be considered late filed. The Processing sites do not directly mail out
refunds; consequently, the time to mail refunds has not been significantly affected by the
consolidation.
Increased paper return volume is starting to cause some unanticipated issues for at least one of
the remaining Processing sites visited during our review. Although the returns were considered
timely filed, increased mail volume at the Fresno Post Office caused some delay in quickly
processing taxpayers’ returns. There are also indications that the Fresno Processing Site could
experience staffing shortages or increased costs to fully staff it in the future. These issues are
discussed more fully later in the report.
Implementation teams monitor the operational aspects of the consolidation
Implementation teams have monitored the operational aspects of the consolidation. IRS efforts
to ensure a smooth transition during the consolidation include monitoring the need to reroute
taxpayer returns as paper volumes decline, preparing action plans, having frequent management
meetings, providing informational web site resources, and documenting lessons learned at closed
sites.
The Project Management Office staff develop a model at least annually detailing State mapping
options (i.e., determining which geographic area each IRS campus will handle). The staff work
closely with the Director, Submission Processing, to determine when taxpayers from affected
States should be directed to file at the remaining sites. The decision regarding which States
should have filing locations moved is made about 7 months before the end of the calendar year.
Several months are needed to make all the necessary changes to the IRS web site and
publications.
At the closed sites and at the next location to close (the Philadelphia Processing Site), the IRS
has used action plans to detail needed tasks and issues encountered during the consolidation
process. The plans contained specific action items, dates, and responsible parties to help ensure
accountability. IRS executives and managers participated in multiple meetings during the
consolidation process, at which the action plans and progress were discussed. The IRS also
provided web site resources for the implementation teams and to help employees understand how
the consolidation process would affect them.



                                                                                            Page 6
                     Consolidation of Tax Return Processing Sites Is Progressing
                      Effectively, but Improved Project Management Is Needed



The Director, Submission Processing, is responsible for making final decisions regarding
transferring workload to the remaining sites. The Project Management Office provides technical
support and offers alternatives for workload movement. Workload transfer is accomplished over
a period of years (except in the Brookhaven Processing Site due to the shorter time period for
closure) by gradually reducing the number of returns arriving at a site for processing. For
example, Figure 4 shows how the number of States filing at the Memphis Processing Site was
gradually decreased.
   Figure 4: States Sending Individual Returns to the Memphis Processing Site

         2002               2003                   2004                   2005        2006
     Alabama              Alabama                  Ohio                   Ohio        None
     Arkansas             Arkansas                Virginia
     Kentucky               Ohio
    Louisiana            Tennessee
    Mississippi            Virginia
    Tennessee
        Virginia
The Memphis Processing Site ceased processing returns at the end of June 2005.
Source: Mapping plans provided by the Project Management Office.

Steps were taken to assist employees affected by site closures
The IRS has made significant efforts to address employee needs in implementing its Processing
site consolidations. Site-level executives and managers used several methods to engage
employees and to help them understand the process and obtain new employment. Executives
and managers stressed that frequent communication was the best tool to help employees find new
jobs and keep morale and productivity high during the transition.
The methods the IRS used to inform employees included:
    •     Working with the employee union.
    •     Providing terminals to search for jobs online.
    •     Holding seminars on job search issues.
    •     Holding large and small group meetings, as well as individual meetings, to inform
          employees about the transition and their options.
    •     Holding job fairs.
    •     Coordinating with other IRS functions to publicize job openings.
    •     Soliciting and obtaining some new types of work for the site, such as Office of Appeals
          and compliance work, in line with preexisting business needs.


                                                                                             Page 7
                      Consolidation of Tax Return Processing Sites Is Progressing
                       Effectively, but Improved Project Management Is Needed



    •    Facilitating “job swaps” in which employees who may lose their jobs can, under certain
         circumstances, exchange jobs with employees in unaffected positions (for example, an
         employee who wants to stay employed with the IRS could swap jobs with someone who
         is interested in early retirement).
By the time the sites closed, 3,105 (73 percent) of 4,280 Processing site employees were released
or chose to leave the IRS. Most of these employees were seasonal workers (working mostly
during peak processing). Fewer than 40 full-time permanent employees were terminated using a
reduction in force7 action at the Brookhaven and Memphis Processing Sites (see Figure 5). The
IRS estimates it paid severance costs of $10.6 million from 2003 to 2006 related to Processing
site closures.
                Figure 5: Employees Affected by Processing Site Closures

                                                                   Employees
                                               Employees          Reassigned                             Employees
                              Total            Who Took           to Positions      Employees            Separated
                             Baseline           VERA/              Within the       Who Left the         Through a
     Brookhaven             Positions(a)        VSIP(b)               IRS              IRS                 RIF(c)
Permanent                           567                131                255                 162                 19
Seasonal                          2,135                110                506                 874                645
    Totals                        2,702                241                761              1,036                 664
        Memphis
Permanent                           342                136                178                   9                 19
Seasonal                          1,236                  53               236                 415                532
    Totals                        1,578                189                414                 424                551
a
  The baseline dates were June 15, 2002, for Brookhaven and October 1, 2004, for Memphis.
b
  VERA - Voluntary Early Retirement Authority. VSIP - Voluntary Separation Incentive Payments.
c
  RIF - Reduction in Force.
Source: Data were provided by the Project Management Office.

The Brookhaven Processing Site, as the first site to close, faced some additional challenges.
These included a shorter time period before closure, difficulties in developing procedures for the
necessary human resources actions, and a steeper learning curve due to being the first site to
close. IRS officials stated the Memphis and Philadelphia Processing Sites have benefited from
the early lessons learned.



7
 A reduction in force is equivalent to being laid off for operational reasons in the private sector. Employees who
are subject to a reduction in force may be eligible for certain benefits, including severance pay, as a result of the
adverse action.
                                                                                                                Page 8
                    Consolidation of Tax Return Processing Sites Is Progressing
                     Effectively, but Improved Project Management Is Needed



The Consolidation Plan Did Not Include a Cost-benefit Analysis of Site
Closures
The Office of Management and Budget has issued guidelines to assist agencies in making
decisions that promote efficient resource use.8 The guidelines describe how to assess a large
program or project with costs or benefits that extend 3 or more years into the future.
Cost-benefit elements that agencies should include in their analysis are policy rationale,
explicitly stated assumptions, alternative means of achieving objectives, and verification of costs
and benefits through retrospective studies. Information should be suitable for promoting good
decision making by IRS management and Congress.9
According to IRS officials and the supporting documentation they provided to us, the IRS made
a business decision to reduce the number of paper tax return Processing sites without a
cost-benefit analysis supporting its decision, even though the primary objective was to achieve
cost savings as well as a more efficient organization. The consolidation plan was a broad vision
of how to proceed with closing individual tax return Processing sites. The plan did not
incorporate goals related to labor, facilities, or support savings to be achieved. A contractor
assisted in the consolidation planning effort and helped develop a model used to prioritize sites
in order of consolidation. The qualitative analysis used to prioritize the sites included factors
such as regional unemployment rates, median average incomes, commercial real estate costs
(from industry sources), and size (number of employees). However, the IRS consolidation plan
did not include:
    •   Cost-benefit analysis – The plan did not attempt to project the cost savings it would
        realize or how long it would take to achieve savings.
    •   Alternatives analysis – The IRS did not assess the baseline state of its processing
        operations by determining the cost of continuing operations in the existing eight locations
        and consolidating space locally. The alternatives that the IRS considered were only how
        to close the five sites chosen for consolidation (faster, slower, all at once, etc.).
    •   Actual or projected internal IRS data – The plan relied on publicly available statistical
        and industry data. For example, the plan included a comparison of regional income,10
        unemployment,11 and commercial real estate costs12 but not an analysis of IRS labor costs,
        recruitment results, and actual or projected real estate costs.


8
  OMB Circular A-94, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal Programs.
9
  Statement of Federal Financial Accounting Standards No. 4: Managerial Cost Accounting Standards and
Concepts.
10
   The source was the Bureau of Economic Analysis.
11
   The source was the Bureau of Labor Statistics.
12
   The sources were Oncor North America Office Market Report and Colliers Commerce CRG, Real State Weekly,
AustinOfficecs.com, and Facilities Design & Management.
                                                                                                    Page 9
                  Consolidation of Tax Return Processing Sites Is Progressing
                   Effectively, but Improved Project Management Is Needed



Not only do these deficiencies in the IRS analysis make it difficult to evaluate the effectiveness
of the plan, they also make it difficult to evaluate the costs and benefits of the implementation.
Consequently, the IRS does not have estimates of when benefits will occur, how much the
benefits will be, or whether other options would have provided additional benefits. To date, the
IRS’ objective has primarily been to close sites with as little disruption to tax return processing
as possible, rather than trying to achieve any specific savings. As the IRS moves forward with
its consolidation, improvements are needed in setting financial goals and in updating and
monitoring costs and benefits accruing from consolidation.
Developing such cost-benefit information would enhance the IRS’ ability to prepare more
accurate budget estimates with respect to the remaining consolidations and better manage its
resources. Such an analysis would provide decision makers with quantified and realistic
objectives as the consolidation progresses. Without financial goals related to the consolidation,
the IRS has not had an incentive to determine how efficient its decisions have been or if it could
be saving more.
A good cost-benefit analysis would take into consideration circumstances that have changed over
the years since the initial consolidation plan was developed. These changes could affect the
cost-benefit analysis. Two examples of previously unanticipated developments at the Fresno
Processing Site are (1) delays in processing returns due to post office capacity problems and
(2) a possible staffing shortfall (or increased costs to hire sufficient numbers of employees).
The IRS capacity planning document concluded that working with local post offices would be
sufficient to address any capacity issues due to increased return volume. However, the Fresno
Processing Site has coordinated with the local post office and has been unable to resolve the
delays in processing mailed returns caused by the large volume of mail at the peak filing time.
Continuing to increase return volume at the Fresno Processing Site without resolving this issue
could affect the timeliness of return processing. When checks are included with delayed returns,
the Federal Government loses interest it would otherwise collect if the checks had been timely
processed and deposited.
The cost to fully staff large remaining sites with seasonal workers is another area that might
warrant additional assessment. The IRS had previously estimated its ability to hire qualified
workers based partly on the unemployment rate. At the time, Fresno had an unemployment rate
of about 14 percent, but recently the unemployment rate in Fresno has fallen below 8 percent.
Using the more recent unemployment rate, the IRS’ own methodology indicates it will be unable
to hire enough staff if it reaches its projected workload in Fresno.
The IRS has the basic tools to assist in cost-benefit analyses, and it has used these tools in the
past to develop ad hoc reports dealing with specific consolidation issues. For example, it has
used its Program Optimization Model to assist in determining how and when to remap States
from the closing sites to one of the remaining sites. The Program Optimization Model projects
labor-related costs over several years and incorporates relative productivity as part of the

                                                                                            Page 10
                      Consolidation of Tax Return Processing Sites Is Progressing
                       Effectively, but Improved Project Management Is Needed



analysis. The IRS has also performed some analysis to include real estate and severance costs
along with the Program Optimization Model data to develop more realistic cost information.
This analysis was used to evaluate timing and order of closure for the Memphis, Philadelphia,
and Andover (but not Atlanta) Processing Sites in January 2003. In June 2004, it was used to
evaluate which of the Andover, Atlanta, and Austin Processing Sites would be best as a third
remaining site.
Consolidation Costs and Savings Are Not Adequately Monitored
While the IRS has realized savings associated with the reduced staff needed to process returns, it
is likely that the increase in electronic filing rather than the consolidation is a more important
factor in the decline in the IRS’ labor costs. The IRS has downsized its workforce by
approximately the same percentage as the decrease in the number of paper returns. From 2002 to
2006, the number of individual taxpayer paper returns filed declined by approximately
26 percent and IRS field processing staff declined by approximately 25 percent. The associated
cost savings were at a lower rate, 12 percent, due to inflation. We estimate the IRS realized
about $56 million in labor-related cost savings in 2006 compared to 2002.
         Figure 6: Return Volume Compared to Full-Time Equivalents (FTE)13
                                                                                        Decrease
                                                                                         2002 -  Percentage
                                    2002       2003       2004       2005       2006      2006    Decrease

Calendar year individual paper
tax returns (millions)              83.5       77.3       69.1       63.8       61.7      21.8          26%
Fiscal year FTEs at
Processing sites                 11,219      10,370      9,329     8,998      8,389      2,830          25%
Fiscal year processing field
labor and contract costs
(millions)                         $455        $447      $432       $420       $399        $56          12%
Sources: Individual paper tax returns: IRS Statistics of Income Bulletin Table 22, Selected Returns and Forms
Filed or To Be Filed by Type During Specified Calendar Years, 1990-2007. FTEs and labor costs were provided by
the Wage and Investment Division Customer Account Services Finance Office.

The IRS has compiled estimated space costs and savings from site closures based on the current
schedule for Processing site closures and included the actual costs for the two locations already
closed (the Brookhaven and Memphis Processing Sites). Figure 7 presents a summary of the
IRS’ plan.



13
  An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For Fiscal Years 2006 and 2007, 1 FTE was equal to 2,080 staff hours.
                                                                                                       Page 11
                      Consolidation of Tax Return Processing Sites Is Progressing
                       Effectively, but Improved Project Management Is Needed



      Figure 7: Space-Related Savings and Costs for Closing Processing Sites

                                               Annualized Rent/
   Submission Processing Site                  Related Savings                 Exit/Release Costs for Space

      Brookhaven                                     $9,640,500                                  $4,128,040
      Andover                                        $5,981,244                                  $1,123,128
      Atlanta                                        $1,735,212                          To Be Determined
      Memphis                                        $3,563,769                                  $2,261,051
      Philadelphia                                   $1,779,046                          To Be Determined
The Annualized Rent Savings are applicable to the first full fiscal year after closing the Processing site. For more
complete information, see Appendix IV.
Source: Information provided by the IRS Agency-Wide Shared Services office.

However, for other aspects of the consolidation, the IRS does not have reliable estimates and is
unable to monitor actual versus planned costs and savings. For example, the IRS could not
provide accurate information technology costs for the Brookhaven Processing Site closure. It did
track information technology costs for the Memphis Processing Site closure and estimated these
to be $2.46 million. However, the IRS was unable to provide the information technology costs
for the Philadelphia Processing Site even though it is closing in this fiscal year.
In addition, the IRS has not adequately monitored and updated financial information on the
personnel costs of consolidations. It could not provide a postclosing assessment of the costs and
benefits attributable to the Memphis Processing Site consolidation. Further, the IRS has not
estimated the personnel savings from closing the Philadelphia Processing Site (or any other
future site) separately from savings that will accrue from other consolidations. In some ad hoc
estimates, the IRS has included savings resulting from electronic filing (i.e., a decreased paper
workload) in the savings it has attributed to consolidation. For example, the IRS combined
electronic filing and consolidation personnel savings in its Brookhaven Processing Site cost
study to arrive at a total savings estimate.
The Wage and Investment Division Project Management Office was given responsibility to
prepare requested ad hoc reports related to the consolidation but not to monitor the costs and
project savings or to check the supporting data and assumptions in the original plan against the
actual results. Therefore, it is not in a position to monitor or update results or to recommend
changes to the plan. Further, the IRS stated that Project Management Office employees have not
been given training in cost-benefit analysis.
The IRS should have an estimate of the costs for each location to be closed in the future, to
prepare budgets that reflect its expected results. Comparing the expected results with the
existing baseline costs will help determine the extent to which the remaining consolidation steps
should be taken and when costs incurred in consolidation efforts will be recovered and savings
begin to accrue. Benefits should be limited to the consolidation-related benefits (primarily
                                                                                                             Page 12
                  Consolidation of Tax Return Processing Sites Is Progressing
                   Effectively, but Improved Project Management Is Needed



savings from eliminating management overhead and space-related costs) and not combined with
electronic filing benefits. For example, our analysis of the Memphis Processing Site, which
includes estimated costs and benefits for labor, facilities, and support services related to the
consolidation effort, shows that benefits will not begin to exceed costs until 2008, approximately
3 years after the site was closed. Our analysis includes labor savings from overhead and
management positions eliminated at the sites but does not include any savings that are primarily
attributed to increased electronic filing. Despite the inadequacies of the existing cost-benefit
information, we believe the IRS will benefit in the future from the consolidation.
Management Action: Subsequent to our discussions during the audit, the Project
Management Office developed a preliminary methodology to help it assess the costs and benefits
attributable to consolidation efforts. The preliminary methodology also separates consolidation
efforts from the effects of reduced paper workload due to electronic filing. The IRS expects to
have the methodology completed and results for closed Processing sites compiled by July 2007.
Recommendations
To update the consolidation plan and improve monitoring of costs and savings, the
Commissioner, Wage and Investment Division, should:
Recommendation 1: Designate the Wage and Investment Division Project Management
Office as the office responsible for monitoring and updating consolidation information and
financial results, and provide key analysts with cost-benefit analysis training to fulfill this
responsibility.
       Management’s Response: IRS management agreed with this recommendation.
       They stated that the Wage and Investment Division Project Management Office has in the
       past been responsible for most monitoring and updating activities with regard to
       consolidation and officially will be responsible for those activities in the future. The key
       analysts are scheduled to attend cost-benefit training.
Recommendation 2: Designate the Wage and Investment Division Project Management
Office to complete a cost-benefit analysis to determine if the existing plan is still optimal in
terms of cost savings and operational effectiveness or if alternatives to the plan need to be
considered. Experience with two closures should assist in identifying the costs and benefits that
can be expected. The analysis should include:
   •   Baseline costs related to running the existing sites.
   •   Productivity data when comparing sites if possible.
   •   Actual savings from site closures and expected savings from future site closures.
   •   Use of lessons learned from prior site closures to maximize savings and minimize costs.
   •   Validation of assumptions made in the original plan by monitoring, identifying,
       addressing, and reporting variations in the projected savings and costs.

                                                                                            Page 13
           Consolidation of Tax Return Processing Sites Is Progressing
            Effectively, but Improved Project Management Is Needed



Management’s Response: IRS management partially agreed with this
recommendation. Management recognized that some of the assumptions used to
determine the existing plan may have changed; however, they did not agree to complete a
cost-benefit analysis to determine if the existing plan is optimal or if alternatives need to
be considered. Management stated the IRS is too far into the process to make changes
either to the planned order of consolidation or to the three-site end-state configuration for
processing of individual tax returns, and there was no evidence to suggest that the
decisions made were incorrect. Management did agree, as an alternative, to conduct a
formal cost analysis using its recently developed cost model to calculate the actual
savings from the Philadelphia Processing Site consolidation and to calculate the expected
savings from the Andover Processing Site consolidation. Management stated they would
carry forward the lessons learned to maximize the potential savings to be achieved when
the Atlanta Processing Site is consolidated, as projected, in 2011. Management believes
these actions will significantly enhance the consolidation process and address any prior
deficiencies in the area of cost-benefit analysis.
Office of Audit Comment: We agree that the IRS’ alternative approach to analyze the
costs of and expected savings from the Philadelphia and Andover Processing Site
closures should help improve project management, but we believe additional steps could
be taken to improve financial management of the project overall. We recognize that
factors other than cost enter into the decision-making process, but we disagree with the
IRS’ opinion that it should not prepare a mid-project cost-benefit analysis because it is
too far into the process to make changes. There are still several years left before project
implementation is complete, and we believe a comprehensive cost-benefit analysis would
help assure this long-term, multimillion dollar project proceeds in the most efficient
manner. The IRS acknowledged improvements were needed in its cost-benefit analysis,
including the need to focus on benefits that result primarily from site closures and not
from increased electronic filing. In addition, Federal Government guidance documents
stress that evaluating costs and benefits should be part of the decision-making and project
management processes.




                                                                                     Page 14
                    Consolidation of Tax Return Processing Sites Is Progressing
                     Effectively, but Improved Project Management Is Needed



                                                                                              Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the Individual Master File1
Submission Processing site (Processing site) consolidation has been adequately planned and
monitored and whether anticipated cost savings have been realized. To accomplish our
objectives, we:
I.      Determined the reliability of the Processing site consolidation model.
        A. Interviewed IRS officials to determine:
            1. Whether the model has been a benefit for planning and oversight.
            2. Whether IRS executives were involved in monitoring and approving the model.
            3. Causes for variance between projected cost savings and actual cost savings.
        B. Reviewed assumptions and parameters of the model using authoritative guidance
           including Office of Management and Budget Circular A-94, Guidelines and Discount
           Rates for Benefit-Cost Analysis of Federal Programs, and Financial Accounting
           Standards Advisory Board Standard 4, Managerial Cost Accounting Standards and
           Concepts. We also reviewed results of the model for accuracy, reasonableness, and
           variances between projected and actual cost savings.
        C. Reviewed updates to the model over time.
II.     Determined whether the IRS has realized FTE2 cost savings.
        A. Interviewed IRS officials on cost savings related to personnel.
        B. Obtained and reviewed IRS cost savings data on personnel cost and FTEs, including
           expenses related to labor costs needed to coordinate consolidation, severance pay or
           buyouts, and consideration of transferred functions.
        C. Obtained detailed business plans provided to Congress and verified the reported
           information on costs and savings.
        D. Reviewed recent management reports detailing processing FTE savings (by location).



1
 The IRS database that maintains transactions or records of individual tax accounts.
2
 An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For Fiscal Years 2006 and 2007, 1 FTE was equal to 2,080 staff hours.
                                                                                                       Page 15
                  Consolidation of Tax Return Processing Sites Is Progressing
                   Effectively, but Improved Project Management Is Needed



       E. Compared the IRS’ use of resources over the period it was consolidating Processing
          sites to demonstrate how resource use changed (increases and decreases in the
          processing function vs. other functions).
III.   Determined whether the IRS has realized real estate cost savings.
       A. Interviewed IRS officials on cost savings related to real estate.
       B. Obtained and reviewed IRS cost savings data on real estate, including exit costs such
          as those related to relocation costs, facility reconfiguration costs, information
          technology modifications, guard services and other contracted services related to
          buildings, and lease buyouts.
       C. Reviewed budgets to verify whether real estate costs reflect anticipated decreases.
       D. Reviewed recent management reports detailing processing function real estate savings
          (by location).




                                                                                         Page 16
                Consolidation of Tax Return Processing Sites Is Progressing
                 Effectively, but Improved Project Management Is Needed



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Mary Jankowski, Lead Auditor
Glory Jampetero, Senior Auditor
John Mansfield, Senior Auditor
Elizabeth A. Miller, Senior Auditor




                                                                                   Page 17
               Consolidation of Tax Return Processing Sites Is Progressing
                Effectively, but Improved Project Management Is Needed



                                                                     Appendix III

                       Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                             Page 18
                      Consolidation of Tax Return Processing Sites Is Progressing
                       Effectively, but Improved Project Management Is Needed



                                                                                                   Appendix IV

                  Space-Related Savings and Costs
              for Closing Submission Processing Sites

This table presents the IRS’ plans related to space release at Processing sites that have been or
will be consolidated and closed. The IRS did not have complete information on exit/release
costs for two locations, which is indicated by TBD.
                       Processing Site Space-Related Savings and Costs

                                         Release           Rentable            Rent/Related         Exit/Release
             Location                     Date            Square Feet            Savings               Costs
BROOKHAVEN Total                                                 273,200           $9,640,500           $4,128,040
Brookhaven: Waverly & Yaphank              2004                  144,600
Brookhaven: 5000 Corporate Drive           2005                  128,600

ANDOVER Total                                                    321,712           $5,981,244           $1,123,128
Andover: Fitchburg                         2009                    30,197
Andover: Methuen                           2011                  155,250
Andover: Cross Point 3                     2011                    80,053
Andover: Cross Point 1                     2012                    56,212

ATLANTA
Atlanta: 4800 Buford Highway               2011                  325,284           $1,735,212                  TBD

MEMPHIS Total                                                    239,775           $3,563,769           $2,261,051
Memphis: Lamar                             2006                    79,290
Memphis: Lamar                             2007                    58,960
Memphis: Mendenhall                        2007                  101,525

PHILADELPHIA Total                                               227,838           $1,779,046                  TBD
Philadelphia: Allentown                    2008                    10,510
Philadelphia: Southeast                    2008                    55,200
Philadelphia: South                        2011                     8,280
Philadelphia: North                        2012                  153,848
Note: Annualized Rent/Related Savings are applicable to the first full fiscal year after closing the Processing site.
Source: Information provided by the IRS Agency-Wide Shared Services office.

                                                                                                              Page 19
     Consolidation of Tax Return Processing Sites Is Progressing
      Effectively, but Improved Project Management Is Needed



                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 20
Consolidation of Tax Return Processing Sites Is Progressing
 Effectively, but Improved Project Management Is Needed




                                                       Page 21
Consolidation of Tax Return Processing Sites Is Progressing
 Effectively, but Improved Project Management Is Needed




                                                       Page 22
Consolidation of Tax Return Processing Sites Is Progressing
 Effectively, but Improved Project Management Is Needed




                                                       Page 23
Consolidation of Tax Return Processing Sites Is Progressing
 Effectively, but Improved Project Management Is Needed




                                                       Page 24
